                              MINORITY ADOPTIONS





            l"VI(E.r.




'0


      ol.



OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
OAl                     028
                                                    JULY 1988
       ,"




                        OFFICE OF INSPECTOR GENERAL
The mission of the Ofce of Inspeto General (OIG) is to promote the effciency, effective­
ness and integrty of progr   in the United States Deparnt of Health and Huma Servces
(HS). It does this by developing method to detet and prevent frud, waste and abuse.
Created by statute in 1976 , the Inspetor Genera keeps both the   Seta and the Congrss
fully and curntly   informed about progrs or management problems and reommends cor­
retive action. The OIG perform its mission by conducting audits, investigations and inspe­
tions with approximately 1, 200 sta strtegicaly locate around the countr.



                    OFFICE OF ANAL VSIS AND INSPECTIONS
This repon is prouced by the Office of Analysis and Inspetions (OAI), one of the thee
major offices within the OIG. The other two ar the Ofce of Audit and the Office of Inves­
tigations. OAI conductS inspetions which ar tyically shon-term studies designed to deter­
mine progr effectiveness, effciency and vulnerabilty to frud and abuse.




                                          THIS REPORT
Entitled Minority Adoptions, " this study was conducte to assess curnt pratices by adop­
tion agencies to incras the rate of adoption by minority grup famies and to identi
obstacles existing to such effons.

The study was prepar by    the RegionaJ         0T   Genera , Ofce of Analysis and inspe­
tions, New York Region. Parcipating       .                 the followig people:


NEW YORK                                      HEADQUARTERS
Alan S. Meyer Ph. (project leader)            Suzane Mwr
William J. Counihan                           Ta Zitas
Pereta Rodguez


J30STON
Charles Vann
                            TABLE OF CONTENTS



                                                                Page
EXECUTIVE SUMMARY


INTRODUCTION


FINDINGS

           Agencies Serving Substantial Numbers of Minorities
           Have Incorporated Special Techniques

     II. Most Familes Reported   Positive Experiences in

         General but Had Specific Complaints


     II. Children Wait Because Familes Want Younger

         Healthy Children
     IV. Foster Parents Are a Valuable   Resource for

         Minority Adoptions


     V. Obstacles to More Minority Adoptions Were Cited
     VI. There Is a Lack of Systematic Data
     VII. Existing Activities Were Noted as Best Practices

CONCLUSIONS


APPENDIX: Comments on Draft Report
. "




                                        EXECUTIVE SUMMARY

       PURPOSE

       An inspection was initiated at the request of the Offce of Human Development Services
       (OHDS) to assess curnt practices by adoption agencies aimed at increasing adoptions by
       minority group famlies and to identify existing obstacles to such effons.


       BACKGROUND

      In response to Federal legislation (the Adoption Opportunities Act of 1978 and the Adoption
      Assistace and Child Welfare Act of 1980) and concern for the number of children waiting for
      adoption , OHDS launched an active campaign in the early 1980' s to increase the adoption of
      special needs children who include minority, handicapped and/or older children , and sibling
      groups. Adoption was seen not only as specially beneficial to these children but also as less
      costly in general than foster care. This view was supported by available evidence presented in
      a 1984 Office of Inspector General inspection report and by recent OHDS figures projecting
      that adoptive placements rather than foster care placements would have saved Federal and
      State governments $74. 7 million in maintenance costs for 1986 alone.

      The OHDS campaign and the pioneering effons of specialized minority and special needs
      agencies have demonstrated two things: (1) many special needs youngsters who were thought
      to be unadoptable, could be adopted; and (2) families from minority communities could be
      recruited for adoption by aggressive agencies. The OHDS, awar of concerns about obstacles
      to adoptions by minority famlies, requested this study.


      METHODOLOGY

      Site visits were made to five metropolitan centers in four States and the Distrct of Columbia
      (D. c.). Discussions were held with public and private agency staff, minority applicants and
      adoptive famlies, community representatives, and State adoption agency offcials. Minority
      famlies were primarly selected by agencies from their applicants who had successfully
      adopted or were waiting to adop-h Statistics on foster care and adoption for the last 5 years
      were requested.                                                  middle-size and smaler cities
      and include onlyCThe  OHDS
                        blacks      requested as
                               and Hispanics  that this study The
                                                 minorities.  exclude
                                                                  five metropolitan centers contained
      an estimated 27 percent of the black and Hispanic foster childrn in the countr and the five
      States (including D. ) contaned an estimated 40 percent of these children nationwide. 7
FINDINGS

             Most agencies serving substantil  numbers of black and hispanic foster
             children have incorporated special techniques.

     These techniques for recruiting and matching minority famlies with waiting children
     were developed by OHDS demonstrtion grants and pioneering agencies. They in­
     clude outreach to minority communities, meda stories featuring individual children
     flexible hours and policies, and employment of minority staf.

            Most minority families reported predominantly positive experiences in
            trying to adopt a child.

    Thiry- three out of 37 (89 percent) adoptive and waiting famlies      reponed they were
    satisfied or very satisfied with the last agency they went to. Most families, however
    had complaints about their experiences with other agencies, some workers or with
    pars of the process.

            A mismatch exists between the types of children waiting and the
            preferences of waiting families.

    In agencies visited, the number of relatively older and handicapped minority children
    exceeded the number of young minority childrn under 4        years of age (by nearly thee
    to one). The older and handicapped children exceeded the number of waiting minority
    famlies wiling to consider them (by four and a hal to one).

            Foster parents are a valuable resource for minority adoptions.



    Seven agencies reponed from 40 percent to 80 percent of all adoptions were with
    foster parnts. The average was 61 percent, which underlines the importance of foster
    parent resources for minority adoption effons.

            Obstacles to minori adoptions were reported.

    Obstacles which deter some minority famlies from adopting include agency practices
    (e. , preference for couples), traditional attitudes of some workers, and misconcep­
    tions and fears (e. g., a belief that " you have to be rich"

            There is a lack of systematic data.

    Lack of systematic data at national , State and local levels on foster children , waiting
    famlies and adoptive placements, is likely to deter effective planning and manage­
    ment of foster car and adoption progrs, includig minority adoption efforts.
               Existing activities were noted as best practices.

        Best practices note include formal interagency coordinating mechanisms; personal­
        ize presentations of specific older and handicapped minority childrn to potential
        parents; use of adoptive parnts, and celebrities who themselves were adopte, as role
        models; and practices encouraging and utilizing single parent and foster parnt adop­
        tions.


CONCLUSIONS

               Adoption agencies ar finding minority parents for many minority childrn
               waiting to be adopted, but not enough who ar wiling to adopt the many
               who are older and handicapped.

               While there is agreement about many. of the obstacles to recruiting and
               matching more minority families, there is a divergence of views on how to
               overcome these obstacles.

               A number of positive developments have emerged: minority community
                organizations have helped to raise the level of public awarness of the
               problem; a Depanment of Health and Human Services Advisory Comnlittee
               on Adoption and Foster Care Information has reported on how to strengthen
               national data systems; OHDS figures suppon the view that milions of
               government dollars could be saved if foster children were adopted; and the
               Interagency Task Force on Adoption , established by the Prsident, has issued
               a report on what Federa, State and local actions are needed to overcome
               barers to adoption.


COMMENTS ON DRAFT REPORT

Written comments were received from the Assistat Secreta for Human Development Ser­
vices and the Assistant Secretar for Planning and Evaluation (ASPE). These comments are
included in the Appendix. We have incoporated most of the comments in the final text of this
repon.
                                                                            INTRODUCTION

                  PURPOSE

                 This inspection was initiated at the reuest of the Offce of Human Development Services
                 (OHDS). The request was based on OHDS' concerns about the effcacy of agency efforts to
                 recruit and match minority famlies with miority foster childrn waiting to be adopted. The
                 purose of the inspection was to assess curnt practices by adoption agencies aimed at in­
                 creasing the rate of adoptions by miority grup famlies and to identify existing obstacles to
                 such effons.





                 BACKGROUND

                 The last decade has seen a major change in the way that adoption agencies operate. Agencies
                 now aim at helping to place foster children with adoptive families, often from minority com­
                 munities, instead of helping childless white families to adopt.

                 Sparked by Federal legislation (the Adoption Opponunities Act of 1978 and the Adoption As­
                 sistance and Child Welfare Act of 1980) and concern for the number of children waiting for
                 adoption , the OHDS launched an active campaign in the early 1980s to increase the adoption
               , of special needs childrn who include minority, handicapped and/or older childrn
                                                                                                  , and sibling
               : groups. This campaign and the pioneering effons of specialzed minority and special needs
               i agencies have demonstrated two things: (1) that many special needs youngsters who were
               : thought to be unadoptable, could be adopted; and (2) that famlies from minority communities
               : could be recruited for formal adoption by aggrssive agencies.


                In reporting these advances, the Inspector Genera in a 1984 inspection report entitled 

                                                                                                        Adop­
                                noted that adoption was universally viewed as less costly than foster care.
                tion Assistance 


                Avaiable studies and data from 11 States strongly supponed this view. Reponed savings
                resulting from adoptions in the 11 States averaged 44 percent of foster care costs. Moreover
                OHDS has projected that Federal and State maintenance costs for adoption would have been
          .r    $38. 3 millon less in 1985 and $74. 7 millon less in 1986 than the actual costs of foster care in

\ I 

        7~~     those years (See OHDS'                 Child Welfare Research Notes                    #6, April 1984).


                However, the OIG report also note major obstacles to recruiting parnts for special needs
                childrn , many of whom ar minority children. Based on the finding that 56 percent of
                childrn listed on adoption exchanges were miority children (see    Study of Adoption
                Exchanges   by Westat., Inc. 1986), it can be estimate that $41.8 milion could have been
                saved if al obstacles to adopting these miority children listed on exchanges could have been
                removed.
 METHODOLOGY

Site visits were made to five metropolitan centers in four States and the Distrct of Columbia
(D. ) which have large numbers of black and/or Hispanic foster children waiting to be
adopted. These included Detroit, Washington , D. C., Los Angeles, Miam , and New York City
(NYC). The OHDS requested that this study exclude middle-sized and smaller cities from the
sample of sites and include only blacks and Hispanics as miorities. The five States (includ­
ing D. ) contaned an estimated 40 percent and the five cities an estimated 27 percent of the
black and Hispanic foster children in the countr. This was not a comparative study of

minority and non- minority experiences.


One or two private agencies in each city were selected from agencies which did not pioneer or
specialize in minority adoptions. Eight private agencies and five public agencies were visited,
for a total of 13 agencies. Thee private agencies specializing in minority adoptions were also
visited to broaden our understanding of the special techniques under study.

In each city, discussions were held with agency admnistrators, foster care and adoption
workers, and miority applicants and adoptive familes, both individually and in groups.
Famlies were selected by agencies and included individuals who had successfully adopted or
were waiting to adopt, but none who had dropped out or been rejected by the agency. Discus­
sions were also held with representatives of community organizations in each city, and with of­
ficials of four State adoption agencies.

Thiry-nine individual famlies (applicants or adoptive parents), 43 agency workers, 22 local
admnistrators, 14 Federal offcials, 13 State offcials and 11 community representatives were
contacted. Of the 39 individual families, 77 percent were black and 23 percent Hispanic, 65
percent were mared and 35 percent single, and their average age was 39 years. Sixty-nine
percent of the 39 families had successfully adopted. This includes 13 percent who were wait­
ing to adopt again. Thiry-one percent were waiting for their first adopted child.

Discussions were also held with four groups of adoptive parents and applicants, totaling
another 42 individuals. One group included mostly individuls who had dropped out or had
been rejected by an agency. All of the above discussions were held in person , except those
with State offcials and 20 famlies who were contacted by phone. A total of 184 respondents
were contacted.
                                          FINDINGS

     Most adoption agencies serving many minorities have incorporated
     special techniques.

Minority famlies who want to adopt are priary served by urban public agencies, private
agencies under purchase-of-service contrcts with these public agencies and some private
agencies which either specialize in or do many minority adoptions. These agencies often do
not charge fees and, in parcular the public agencies; generaly serve the harder-to- place,
older and more handicapped minority childrn , for whom subsidies
                                                                   ar frequently available.
Many other private agencies, however, serve primarly white childrn , often healthy infants,
and generaly charge fees. This study focused on 13 public and private agencies in large cities
serving substatial proponion of black and , in some cases, Hispanic foster childrn. The per­
cent of minority childrn raged from 53 percent to 95 percent with an average of 67 percent.

Nearly all the agencies reportd utilzing most of the special techniques, developed by OHDS
demonstrtion grants and pioneering agencies, for recruiting and assisting minority applicants
to adopt. In utilizing varous combinations of these practices, however, agencies vared con­
siderably in the freuency and intensity of their effons such as:


                 Publicizing agency activities in minority media , especially newspapers, as
                 well as in the general media.

                 Using the media to feature specific waiting minority children in newspaper
                 columns or TV spots. " Children sell themselves " respondents reponed.

                 Sponsoring special activities designed to bring waiting children and
                 potential adoptive families together , including adoption fairs, paries and
                 festivals.

                 Sending staf out to speak to minority organizations, especially black
                 churches.

                Keeping flexible hour for applicants. About half said they were available
                on both evenings and weekends and the other half reported evening hours.

                Responding quickly, openly and sensitively to initial phone inquires and to
                later questions. In agencies serving mostly minority childrn , minority
                applicants ar typically seen more quickly and studied sooner than white
                applicants, who might be put on a waiting list or referred to another agency.
                         Providing some post placement and post adoption services to help famlies
                         and children adjust and to prevent disruptions (during initial placements)
                         and dissolutions (after finalization). Among the most common services
                         were social worker counseling, referral for mental health counseling of
                         parents and/or child, and adoption and foster parent suppon groups. Such
                         peer groups provide critical support to many parents thoughout the adoption
                         process. Post placement services is an area ripe for the development and
                         dissemination of models.

                         Most of the minority-oriented agencies have also incorporated special
                         approaches to hirg and trining of staff. In 6 of 12 (50 percent)
                         minority-oriented agencies providing such data, the majority of staf was
                         black and in a seventh the majority of staff was Hispanic. Several agencies,
                         though , said they lacked enough black staff. This included one private
                         agency which reported no black staff.

Seven of 11 (64 percent) responding agencies reported that most of their adoption staff had
some formal training in minority adoption methods or cultura sensitivity. While most public
agencies had specially trained staff, only half of the private agencies did.



II.	   Most minority familes reported positive experiences in general
       but had specific complaints.

        Eighty-nine percent of minority families expressed general satisfaction with their
        most recent agency experiences.

Famies were asked how satisfied they were in general with the agency where they adopted or
were tring to adopt. Thiry-thre of 37 families (89 percent) asked said they were either very
satisfied (51 percent) or satisfied (38 percent). Their favorable responses were based on the
outcome and/or the process of tring to adopt. None of them had been turned away by their
last agency.

Twenty-seven of the 39 (69 percent) famlies had successfully adopted. They were
                                                                                          primarly
satisfied because they had adopted the kind of child they wanted from the agency. Typical of
commentS from both public and private agency adoptive famlies were the following:

        "/m completely satisfied with the agency that gave me my baby. Our infant was given
        to us fast and we got what we wanted. "

         I'm ecstatic. My daughter is         years above in school and my boy is a quick learner.
Both adoptive and waiting famlies attrbuted    pan of their satisfaction to the way some
workers handled pans of the adoption process. This process stas with intake (usually on the
telephone) and procees through orientation to home study to initial and fmal placement and
then to post placement. Among aspects of the process these famies liked best were the
friendly, wan reception they received at intae and orientation. They liked the use by some
agencies of adoptive parnts as pan of the orientation team. They also liked the abilty
their worker to answer their questions and to keep them informed throughout the process.
Some were pleased that it did not tae many years to adopt like they thought it would. One
waiting applicant summed up the reasons many of those stil waiting were satisfied:

         So far it han t really been that long. She keeps callng me to tell me what s happen­
        ing. I have no problems. I don t have to keep callng her to find out. She calls me and
        that's good.

        However, three quarters of the families had complaints about their experiences with
        other workers or agencies.

Families in this study, reacting like respondents in many opinion surveys, gave a positive view
of the subject in general and negative views of some specific aspects. Families were asked a
number of questions which gave them an opponunity to voice dissatisfactions or complaints
about their experiences. These included questions about what they did not like about how the
agency treated them , whether they found any workers to be especially helpful , why they went
to more than one agency (if they did), and whether they thought the home study should be
done differently.

In response, 28 of 37 (76 percent) responding applicants cited one or more complaints about
other workers or agencies. Most complaints about other workers centered on poor com­
munication by workers such as not keeping in contact, withholding information or not making
the applicant feel comfortble. About 20 percent of applicantS said they had been made to feel
uncomfonable at certn private agencies or by parcular workers because of their race.
While only 5 of the 39 (13 percent) applicants said they preferred a worker of the same race
44 percent agreed that some workers have attitudes that ar " too white middle class.

Nearly half of the miority applicants approached two or more agencies before selecting one.
Their experiences with other agencies were often negative. Seven (18 percent) of 38 famlies
were so dissatisfied that they gave up on an agency or felt like giving up the idea of adopting
altogether.

While all but one of the 39 familes would recommend their last adoption agency to their
friends, 18 or nearly half of them said they would advise frends to stay away from cenain
other agencies. Those with negative advice were two and a half times more likely to be criti­
cal of private agencies than of public agencies. Some of these private agencies served relative­
ly few minority children , while others served more such children but had policies and/or staff
seen as traditional. Common complaints about private agencies were that they charge fees
 and/or do not mae the applicant feel welcome. The smaler number who complained about

 public agencies cited overworked staff or the unavailabilty of younger healthy childrn.



 II. Children wait     because familes want younger, healthy children.

        A serUJUs mismatch exists between the types of children waitng and the children
        preferred by families.

Agencies were asked for data on the age, sex and handicapped status of foster childrn waiting
to be adopted by famlies other than their foster parnts, and on the charcteristics of children
such famlies were willng to consider. Data provided by 11 agencies at the time of our study

(Summer, 1987) show that:


                  Children waiting to be adopted by families other than their foster parents are
                  likely to be over 3 years of age (71 percent), handicapped (59 percent)and
                  males (59 percent).

                  In dramatic contrast, famlies are likely to want infants or toddlers under 4
                  years old (52 percent) and healthy children (92 percent). These differences
                  are shown in Table 1 below.

                  The most starling mismatch involves handicapped children. There ar five
                  times as many physically or mentally handicapped children as there are
                  families who wil consider them. This mismatch occurs in eight of nine
                  agencies with handicapped children. The degree of handicap was not
                  specified.

Also , there ar nearly twice as many children over II years old waiting than there are families
waiting for this age group. The numbers of waiting children and waiting families vared wide­
ly because the agencies differed with respect to the size of their foster care population and the
length of their list of waiting famies, if any.
                                                TABLE
             Characteristics of Waiting Children and of Children

                  Whom Waiting Familes Wil Consider

                                  Waiting                             Familes Wil Consider
                                  Children Are:                       Children Who Are:


           Age:       0 - 3                     29%                        105       52%
                      4 - 11
                       12+
                                        (155)                             (203)
          Healthy                               41%                        186       92%
          Handicapped
                                       (155)                              (203)


          Boy                                   59%                                  12%
          Girl
          Either
                                       (155)                              (203)
     * Basd on data   provided by 11 agencies




The mismatch affects waiting time and recruitment policy.

The mismatch described above also has repercussions for how long different categories of
children and of applicants have to wait for an adoptive placement. We found black children
generally wait longer than whites from the time they are free for adoption to the time of their
initial placement. How much longer depends on the child' s age and handicap. We asked
agencies to estimate how long healthy infants and lO- year-old boys with emotional problems
have to wait (on the average) to be adopted, once they ar free for adoption. Table 2 below
shows the average of estimates by II agencies for these two age groups by race and ethnicity.
The estimates were based on agency experiences.

The average time a healthy white infant reportedly would have to wait was about 2 1/2 weeks;
a healthy black infant would wait 3 months. For a lO- year-old boy with emotional problems,
the average time the child would wait was about 10 months for whites and 20 months for
blacks. The waiting time for Hispanic children was closer to that for the white children. At
four of nine agencies the time for Hispanics would exceed the time for whites and at four
others it would be the same as that for whites. Although the study did not systematically ob­
tain data on sibling groups, it was suggested by some agency offcials that, in the case of sib­
ling groups, the wait could be longer for all categories in Table 2.
                                                    TABLE 2
           How Long Foster Infants and 10- Year- Old " Problem
         Boys, Free for Adoption , Are Likely to Wait to be Adopted
                                    Estimated Waiting Time in Months
                                       Healthy                        10 Year-old Boys
     Race/Ethnicity                    Infants                        With Emotional Problems

     Black                               0 Mos.                       20 Mos.
     Hispanic
     White

     *Base on average        of estimates by 11 agencies.



Many famlies interested in infants have to wait, since there are many more families waiting
for children under 4 years than there ar children in this age group. In our own sample,
however, famlies who adopted children under 4 years only had to wait an average of 11
months, slightly less than the 13 month average wait by those adopting childrn 4 and older.
Explanations for this unexpected finding include the possibilties that families selected by
agencies for us to tal with included many who adopted relatively quickly, that waiting lists at
these agencies were relatively short, or that some famlies who had adopted older childrn had
originally waited for a younger child.

The waiting lists caused by the backlog of familes waiting for infantS and toddlers affects
how actively agencies recruit more famlies. An agency admnistrator expressed the views of
several others when she said:

        We don t do a lot of recruitment because we have a waiting list Advertising is good
       because it keeps names of agencies before the public; it s bad because it means longer
       waiting lists. It can be a          or     month wait before a home study is begun. We   tr to
       keep them involved during the wait, but it s          hard. However, familes wanting older
       children we get to right away.


Approaches to finding enough familes for the handicapped and older children.

On the average, 6 out of every 10 minority waiting childrn at agencies visited are hand­
icapped and only lout of every 10 famies recruited is willng to consider a handicapped
child. Similarly, 7 of 10 children are over 3 years and only 5 in 10 famlies are interested.


Agencies ar    usingseveral approaches to finding more minority families for the handicapped
and older childrn: (1) convincing more waiting minority families interested in healthy
children to consider a handicapped child; (2) targeting recruitment efforts on reaching more
famlies wiling to consider handicapped children; or (3) increasing generalized recruitment of
 minority famlies.

At the present time, many agencies use a combination of persuasion and targeting, in addition
to foster parnt adoptions. Persuasion has two drwbacks: some famlies complai about
agencies pushing them too hard to tae a handicapped child, and such stretching of a famy
tolerace sometimes results in a disrupted adoption. Targeting appears to have more ad­
vantages. By featuring in the media individual childrn whose handicaps are described,
famlies wiling to consider these panicular handicaps ar recruited. Even if they do not end
up adopting the panicular child , they are often brought Into the agency s pool of waiting
famlies and may consider another handicapped child. Although some agencies occasionally in­
crease general recruitment effons as well , this runs the risk of producing longer waiting listS.


In discussing the backlog of minority children in foster car, some agency officials and
famlies taed about the causative role of family breakdown among the socio-economically
disadvantaged, many of whom are minority famies, and problems in the foster care system
which impede timely resolution of cases ,either through reunification with binh parents or
early adoptive placement. Some respondents strssed long-term approaches to reducing the
backlog of children waiting for adoption. Suggestions included increasing effons to prevent
breakdown in minority famlies and to achieve reunification of such children in foster care, im­
proving socio-economic conditions of minority famlies and streamining coun procedures for
termnating parental rights at an earlier age.



IV. Foster parents are a valuable resource for minority adoptions.
The encouragement of foster parent adoptions is especially valuable in placing minority
childrn , includig older and handicapped children for adoption. State laws generally give
first preference to foster parents who wish to adopt after a given period of time in foster care
has elapsed. Such preference was requird in the four States we visited, but not in
Washington , D. C. Many of these adoptions involve physically or emotionally handicapped
childrn whom the foster parnt has grown to know and love.

A high rate of foster parent adoptions has become the norm in recent years. With the advent
of State adoption subsidies in the 1970' s and Federa subsidies in 1981 , States began to
reverse their policies against foster parent adoptions. One effect of these subsidies, if not the
sole intent, was to make it fmancially possible for many foster parnts to adopt. This effect is
reinforced by the IV-E provision that subsidies can be given to adoptive parents who have " sig­
nificant ties " to a IV- E eligible child, without first tring to find adoptive parnts who require
a subsidy. By 1984 , the OIG found that 14 of 17 States had an estimated foster parent adop­
tion rate of at least 50 percent for special needs childrn. In the present study, we found that
in the seven reponing agencies with miority foster parents, adoptions by foster parents
averaged 61 percent, with a range from 40 to 80 percent. All agencies told us they encouraged
foster parent adoptions.
Although reponed rates for foster parent adoption continue to be high , just how high these
rates realy ar  depends on how foster parnt adoptions ar defined and on which adoptions
are included in the base on which the rate is calculated. For example, some agencies ' high
rates may result from including in their foster parent count, adoptive parents who are tem­
porarly classified as foster parents at the time of their initial adoptive placement. Some agen­
cies may also include a large number of " at-risk" adoption cases (i.e., cases in which foster
childrn ar placed with famlies for adoption with the likelihoo but not the assurce that
the child wil become fre).


     Obstacles to more minority adoptions were cited.

Thre tyes of obstacles to miority    adoptions were most often cited: agency practices, staf       at­
titudes, and community misconceptions and fears. Other studies have reported that agency
practices and staf attitudes, have been identified as obstacles to adoption by nonminority
parents as well.

AGENCY PRACTICES - While not aimed at minorities , some agency practices may nega­
tively affect minority applicants. For example, Census Bureau reports show that blacks and
Hispanics are more likely than whites to be low- income, have crowded housing, and be single.
Therefore, the policies of many agencies which may be reasonable in general , tend to be
obstacles to some black and Hispanic applicants. These policies include the following:

       Charging Fees
       Many private agencies charge the applicant a fee for adopting, in addition to the usual
       legal fees. Fees were cited by respondents as a major obstacle to blacks because of
       their sensitivity to the negative historical association with buying and sellng   babies.


       Preference for Couples
       Nearly all agencies said they prefer couples over single parnts, especially for infants.
       Although these agencies wil often accept singles for older children , and even give
       such applicants preference if indicated by the needs of the child (e. , a sexually-
       abused gil who could better relate to a single mother), some single applicants felt dis­
       crinated against; and others had heard that being single made it harder to adopt.
       One applicant complained:

        Because I'm single, I feel uneasy and unrrusting because they wouldn t give a child
       to me unless two-parent familes pass him by. If they suggest a child to me, I wonder
       why? I slwuld be able to get a norml child just like everyone else.

      While most applicants, both single and mared, want healthy infants, 40 percent of the
      single applicants listed on the Black Registr in Detroit expressed wilingness to con­
      sider a handicapped child compared to only 17 percent of mared registrants. Also , 32
      percent of singles were wiling to consider a child 8 years and older compared to eight
      percent of mared.
        Explanatin of Subsidies
        Twenty- four (63 percent) of 38 applicants said that the availabilty of subsidies was not
        explained to them. Famlies from private agencies were much more likely than those
        from public agencies to say this. Although private agencies ar less likely than public
        agencies to have childrn eligible for subsidies, some do. In fact, at least four of the
        eight private agencies provided subsidies to some famlies. Agencies must make a
        diligent effon to find a family who does not reuir a subsidy to adopt a special needs
        child eligible for a Federal subsidy under Title IV- E. However, a means test is not re­
        quir for receiving a Federal subsidy or, in most cases, a State subsidy for a special
        nees child.

        Since the availabilty of a subsidy is an importt incentive to adopt, publicizing this
        minimally or not at all may result in losing an applicant or deterrng others from apply­
        ing. A few respondents reported that some foster parents were fearul of losing finan­
        cial support for their child if they adopt. A few recommended higher subsidies.

        Policies Related to Income
        Agencies do not have miimum income requirements. However, the applicant must be
        able to manage within their means. While agencies reponed no fonnal policies regard­
        ing the acceptability of AFC recipients as adoptive parents , 4 out of 11 agencies
        visited did not accept applicants on AFC. Placements with AFDC recipients vared
        from 2 percent to 25 percent of all placements at six agencies making such placements.
        One agency had no infonnation on AFC recipients.

       The requirement that every member of the applicant s immediate family have a medi­
       cal exam , while necessar, is a problem for low- income famlies without health in­
       surance. This was perceived as a hardship when agencies or the State do not help
       defray the costs.

       Providing suffcient living space for another child is reportedly diffcult for famlies
       without the resources to expand their existing space or to move. According to agency
       administrators in New York City and Detroit, these problems are exacerbated in their
       cities where there ar serious housing shonages.

STAFF ATTITUDES - Although most applicants found one or more adoption workers who
were especially helpful , they also had experienced or heard about other workers who were not.
Famies reportd specific kinds of attitudes on the pan of adoption workers that can dis­
courage minority applicants. These included attitudes that are considered insensitive, superior
and rigid. One applicant said " The social worker was condescending. She was insensitive
about infenility. " Another observed that " Social workers are so used to dealing with a cenain
type of people, like lower-educated, that they tal down to al people and don t even know it.

Also mentioned were workers who were too persistent in tring to get famlies to take children
they did not want. Some applicants felt that children with serious handicaps were being
presented to them against their wishes. While most applicants said they were told everything
 about the children , some felt they were not told enough. In one instance , the applicant said
 she had to ask whether or not the child had AIDS. There is increasing concern , on the pan of
 applicantS and sta alike, about the later effects of AIDS on those children who test positive
 for AIDS-related antibodes and about whether any health care costs would be covered by
 medical subsidies.

Some applicants said that some workers were insensitive to the feelings of minority ap­
plicantS. A few applicants felt they were scrutinize more closely than whites. A specifc com­
plaint made by about 10 percent of famlies was that some workers are overly concerned
about matching the ski color of a black child to that of the adoptig parnts.

COMMUNITY MISCONCEPTIONS AND FEARS - There was genera agreement among
most famies and staff that black and Hispanic communities often do not know about formal
adoptions. While such communities ar aware of informal adoptions within the extended fami­
ly, several respondents reported there is a stigma to agency adoption among some minority
residents. One reason appears to be an aversion to the idea of paying money for babies. In
describing obstacles to helping black famlies adopt, an adoptive mother pointed to a percep­
tion that some black people have about adoption: " Those that do adopt don t tell anyone.
They re insecure.

Among the myths and fears which deter others from inquirng about adoptions are a number
of mistaken beliefs. Many reportedly believe that adoption costs a lot and that one must have
a " goo" income and a " goo" education , live in a " fancy " neighborhoo , and cannot work if
single. Some are said to believe that an adopted child must be kept even when the problems
are too much to handle. This is a deterrent because of the fears expressed, even by some ap­
plicants, of tang on someone else s problem and becoming economically and socially hand­
icapped by adopting a handicapped child.



VI. There is a lack of systematic data.
For local, State and Federal agencies to plan and manage effective child care programs, includ­
ing strategies for recruiting and matching families with waiting foster children , it is importnt
to maintai accessible data files over time on charcteristics of foster children , famly ap­
plicantS and adoptive placements. Such data are also necessar for measuring progress. There
is, however, a lack of such data at al levels.

The National Adoption Exchange and varous regional and State exchanges were found by
some of the agencies visited to be useful in recruiting and matching famies with waiting
childrn. Historicaly, however, these exchanges were not designed to serve, nor do they serve
planning and management purposes for national or State programs on foster care and adoption.
The only national data system on foster car and adoption is volunta. Known as the Volun­
tar Cooperative Information System (VCIS) and operated by the American Public
                                                                                  Welfar
Association with a grnt from OHDS, the system is limited in several important ways: data
from one or more States is missing on vinually all data elements; the data elements are often
de(rned differently by the States; and there ar no data for counties and cities. There ar 32
data elements plus additional sub-elements. They include such items as the race/ethnicity and
age of chidren in substitute care free for adoption , and of those in non- finalized adoptive
home placements.

When four State agencies (excludig D. ) were asked to provide 1986 statewide statistics on
foster children and adoptions, all four could provide data on only a few items such as the num­
ber of childrn in foster care and the number of finalized adoptions. The number of States that
could give breakdowns by race and ethnicity vared from two to three dependig on the item.
Moreover, only one of the State agencies could provide any statistics on persons applying for
adoption.

While 13 local agencies (including D. ) provided some 1986 data elements requested, no
more than eight agencies could provide data on most of the elements on foster children and
adoption. Fewer than half could provide data on adoption applicants. Moreover, for each data
element reponed for children , at least several agencies could not provide racial and ethnic per­
centages. Also, the number of agencies able to provide data decreased for each proceedg
year going back to 1982.

The OHDS has been awar of the lack of systematic data and has taen steps to address the
problem. As far back as 1986 , it founded the National Center for State Couns to develop a
plan for a National Adoption Information System. As a result of the Omnibus Budget Recon­
ciliation Act (OBRA) of 1986, an HHS Advisory Committee on Adoption and Foster Care,
under the diction of OHDS' Admnistration for Children , Youth and Families, has recom­
mended to the HHS Secretar ways to meet the need for national data on adoption and foster
care. The Secretar is required to propose to Congrss by July 1988 a mandatory national
data collection system.



VII. Existing activities were noted as best practices

FORMAL INTERAGENCY COORDINATING MECHANISMS - These have the affect
of incrasing communication and cooperation among varous public and private agencies and
reducing competition. Examples include:

                 interagency commttees which meet regularly to shar      information about
                 waiting childrn and famlies among public and private agencies in the area.
                 Examples are KINSHI in Detroit and the Adoption Committee in New
                 York City; and
                 the Black Famly Registr is an innovative effon to involve agencies in
                 Detroit in listing all black applicants on a central registr for use by all
                 agencies.
                                                 g., "





PERSONALIZED PRESENTATIONS OF SPECIFIC CHILDREN TO POTENTIAL
ADOPTIVE PARENTS - This practice is generally accepted as one of the more effective
techniques of findig parnts for minority childrn who are hard-to- place. Such presentations
are made in the following ways:

                 regular newspaper columns which often featue older minority childrn with
                 physical or menta problems (e.    A child is waiting " column in the
                 Sunday  Detroit News, which includes children selected through interagency
                 discussions at monthly KINSHI meetings);

                 photo- listings of children by State and regional adoption exchanges,
                 appealing pictures by professional photographers hired by agencies, and
                 videos of children for use on TV or at community meetings; and

                 adoption pares , fairs, festivals, and other events to which potential parents
                 are invited to meet and get to know individual children.

USE OF ADOPTIVE PARENTS AND CELEBRITIES WHO WERE ADOPTED, AS
ROLE MODELS - Many agencies involve adoptive or foster parents as role models in the
course of recruitment and traiing activities. Occasionally, agencies involve famous per­
sonalities who have been adopted, in recruitment effons. An example is the Annual Adoption
Fantasy Festival for Latino Kids and the Black Adoption Festival, both in Los Angeles. At
recent festivals, Ricardo Montalban and Ben Vereen each paricipated    as adopted persons.


ACTIONS TO SENSITIZE AND STRENGTHEN STAFF - Efforts to reach out to and at­
tract minority applicants have been faciltated by agency actions to sensitize and strengthen
staff. Specifc actions have included hiring minority admnistrtors and recruitment
specialists, and providig special trning in minority adoption methods and cultural sen­
sitivity. Examples include the following:

                 About half of the agencies visited have hired minority admnistrators for
                 their adoption units. By going beyond the worker level , these private and/or
                 public agencies in Detroit, Distrct of Columbia and New York City have
                 created an image of an agency concerned and committed to placing minority
                 children.
                 Most agencies assign adoption workers to multiple tasks including some
                 recruiting. Because of the crisis nature of adoption work, recruitment often
                 has to wait. Three public and one private agency have assigned one or two
                 persons as recruitment specialists. They concentrate on recruitment and
                 have reportdly strngthened agency effons to bring in minority famlies.


                 Three of the five public agencies reponed that State training opportunities
                 were utilzed for training their staf in minority cultures and adoptions. The
                             other agencies with specialized training -- two public and two private -- used
                             community groups or outside consultants. One in New York City was
                             especially pleased with the multi-culturl training received by her staff from
                             the local Association of Black Social Workers and the Committee for
                             Hispanic Children and Famlies.

PUBLICIZING THE AVAILABILITY OF SUBSIDIES - One of the keys to increased
minority and other special needs adoptions over the last 7 year has been the use of adoption
subsidies and medcal assistace funded by the Federal and State governments under the Title
IV- E Adoption Assistace program and by State governments for childrn not eligible for IV­
E. Several agencies appear to have consistently told applicants about the availability of such

subsidies. Also, some adoption exchange photo- listings routinely indicate when a subsidy is

available. Even if the paricular child might not qualfy for a subsidy or the famly may not

need one at that time, the infonnation may be appropriate for a subsequent adoption or be help­
ful to another potential applicant.

ENCOURAGING AND UTILIZING SINGLE PARENT ADOPTIONS - Single parnt
famlies are increasingly recognized as a valuable resource for adoption agencies to utilze
more extensively. While some agencies do not accept single parnts and some ar just begin­
ning to get the word out that singles can adopt, others have been approving a substantial num­
ber of single parents (despite their general preference for couples) and publicizing their policy
of accepting single applicants. Agencies in Los Angeles, Detroit, D. C. and New York report
that anywhere from 19 to 50 percent of their adoptions were with single parent familes. The
public agency in the Distrct of Columbia has recently established a suppon group for single
adoptive parents.

ENCOURAGING FOSTER PARENT ADOPTIONS - The majority of adoptions at most
agencies visited were with foster parents. The value of these parents as a resource was under­
lined in a recent study by Westat, Inc.          (Adoption Services for Waiting Minority   and Non-
                   which found that agencies which made better use of foster parents were
minority Children) 


more likely than agencies that did not, to be as successful in finding adoptive homes for
minority as for non- miority children.

To facilitate the transition of famlies from foster car to adoption status , several agencies
developed special mechanisms. One established an adoption resource team in which adoption
workers provide tehnical assistance to foster car workers who reportedly tend to be more
oriented to handling immedate crises than to long-range planning. At a second agency, foster
care workers reuest consultation from an adoption worker if the foster parent is unsur
whether to adopt. Another way of encouraging foster parent adoptions is advocatig " fost­
adopt " or " at- risk" adoptions by foster parnts. Such placements ar made with the under­
standing that tennnation of the child' s parental rights is very likely but not assure.

LOCAL ADVOCACY GROUPS AS WATCHDOGS AND EDUCATORS - A unique role
is played by varous local groups advocating on behalf of familes as well as  tring to adopt
childrn waiting to   be adopted. They counsel famlies who ar unsure or discouraged, refer
them to appropriate agencies and negotiate with local and State agencies for improvements in
the system. They also help to educate the minority communities about adoptions. Examples
of such groups ar Room For One More, a project of the Ward Afrcan Methodst Episcopal
Church in Los Angeles and the Council on Adoptable Children (COAC) in New York City.
New York State is attempting to work cooperatively with COAC and statewide advocacy
groups to utilize the inevitable tensions for creative purposes.
                               CONCLUSIONS


Adoption agencies have made substantial progres      towards addressing    the needs of
minority children waiting to be adopted.

            Available techniques ar being used effectively to recruit minority famlies
            and to match them with younger , healthier foster children.

            There has also been considerable progress in finding families for some of
            the minority foster childrn who ar older and handicapped.

Agencies have not yet succeeded in recruiting enough minority familes for the many
waiting minority children who are older and handicapped.

           Our data show that minority foster childrn have remained in foster care
           longer then white children. As a result such children they are likely to be
           disproportionately represented among the older, more handicapped foster
           children.

           Black couples have reportly adopted at a higer rate than comparable white
           couples (see Child Welfar Notes #3, Children s Bureau, Deparment of
           Health and Human Services, 1984), but there are stil not enough black
           familes who are wiling to take the older or handicapped black child.

While there was agreement among respondents about many of the obstacles to
recruiting and matching more minority familes, there was a divergence of views on
how to overcome these obstacles.

           It was generally agreed that some agency policies, the lack of suffcient
           minority and trined staff, and cenain minority community attitudes create
           obstacles to finding parents wiling to take an older or handicapped black
           child.

           It was also agred that socio-economic hardships disproportionately affect
           minority families and make it harder for them to keep their childrn out of
           foster care. These hardships also contrbute to a higher proportion of
           female- headed households, AFC mothers, and low- income famlies among
           minority communities.

           There was also general consensus that agencies should intensify recruitment
           efforts targeted at minority familes interested in specific older and
           handicapped children and expand suppon services for families during and
           after the adoption process.

           There was no consensus, however, on how to recruit enough minority
           famlies to adopt the hardest- to- place waiting children. Some recommended
           reaching out more to the single famiy, the low- income famly, and to some
           welfare famlies. Others recommended addtional incentives to adopt, such
           as Federal ta deductions for adoption expenses, new fmancial or other
           rewards, or increased subsidies.

           Stil others strssed longer term actions which give high priority to:
           preventing miority famly breakdown and reunifying foster children with
           their birh families; expedting the flow of children through foster care with
           a streamined cour process for terminating parental rights at an earlier age;
           and/or improving the socio-economic conditions of minority famlies.

A number of positive developments have emerged:

           Major organizations in the minority community have helped to raise the
           level of awareness among public officials, the media and the public of the
           problems of waiting minority children.

          The administrtion and staff of many public and private agencies are
          committed to placing minority children.

          Under the management of OHDS' Administration for Children , Youth and
          Familes , an HHS Advisory Commttee on Adoption and Foster Care
          Information, mandated by the Omnibus Budget Reconcilation Act (OBRA)
          of 1986, has submitted to the Secretar ofHHS its recommendations on how
          to strengthen national data systems.

          Data developed by OHDS support the view that adoption is more cost
          effective than foster care and would save Federa and State governments
          millons of dollars.

          The Interagency Task Force on Adoption, established by the Prsident, has
          issued a repon on what Federal legislation and State and local actions are
          neeed to overcome the barers to adoption.
                                         APPENDIX

COMMENTS ON DRAFT REPORT

The complete comments on the drt report reeived from the Assistant Secretar for Huma
Development Services and the Assistant Secretar for Planning and Evaluation (ASPE) ar at­
tached.

Almost all the comments were found to be helpful and have been incorporated or otherwise ad­
dressed in the text of this repon. One suggestion , however, was made that the cost to a poten­
tial adoptive family of getting medcal exams for al famly members should not be described
as an obstacle to miority adoptions. In this instance, we did not change the finding since we
simply reponed what respondents perceived as obstacles.
                                                                                Utlice ot

               DEPARTMENT OF HEALTH &. HUMAN SERVICES                           Human Development Services

"""'11
                                                                                Assistant Secretary
                                                                                Washington DC 20201
                      MAR II r   . J





         TO:         Richard P. Kusserow
                     Inspector General

         FROM:       Assistant Secretary
                       for Human Development Serv         ices
         SUBJECT:    The Inspector Gene    r a l' s   Dr aft Repor t on Minor      rEy
                     Adoptions

         First, thank you        for a job well done. Your        draft report on
         minor i ty adopt ions prov ides   subs tan ti ve in     forma t ion   and analys i s
         that will enhance our efforts in this area in the future. We
         appreciate your help and hope that our comments on your draft
         report will be of some assistance as you prepare your final (eport.

         In addition to various minor improvements (which we have indicated
         in the marked- up attached text), we have six larger concerns
         r egar ding the Off ice of the Inspector Gener          al
                                                        (OIG) dr a ft repor t.
         First, in the fourth paragraph on page i of the Executive Summary,
                            to the " sens i tive cl imate " th at sur rounds
         the r epor t a lludes
         interracial adoptions and " provides the context" for the study.
         We believe that the true context for the study is the Adoption
         Opportunities Act of 1978, the Adoption Assistance and Child
         Welfare Act of 1980, and especially the very active Office of
         Human Development Services (OHDS) campaign in the 1980s to
         increase adoptions of special needs children. In the absence of
         any data in the draft report on interracial adoptions, we suggest
         that this paragraph either be deleted or significantly         evised.
         Second, in the last paragraph on page iii and the last paragraph
         on page 17, the draft report refers to the President' s Task Force
         on Adoptions. This task force has already made its report and the
         two subject paragraphs should be revised to reflect 


         Third, the OIG finding on a lack of data on waiting families and

           ildren reported on pages        iii,
                                         12, and 13, makes no reference to
         or acknowledgement of the National Adoption Exchange, an OHDS-
         funded project to bring together families and waiting children who
         live in different geographical        areas.
                                                Did the OIG inspection
         uncover any use by adopt ion agenc ies of local, State, or na t iona 1
         adoptio exchanges? In any case, we believe that the Voluntary
         Cooperative Information System (VCIS) is not a source of data for
         recruiting families or placing children and, thus, it is not clear
         why VCIS is discussed in this section of the report.
         ? ,




Page :         - Richard P. Kusserow


Regarding the more general OIG finding of a lack of systematic

data on adoptions, we ask that the final report show that we are

aware of this problem and that we are already moving to improve
the situ         tion.
                OUr ongoing efforts in this area include:
               a 1986 grant to the National Center for State Courts to

               es tabl ish a    Na   t ional Adopt ion In forma t ion System tha t
               provides information            on all adoptions:

               the Adv   i sor y Commi t tee
                                        on Adopt ion and Fos ter Care
               In forma t ion   has ou t     lined the steps necessa
                                                             ry to deve lop a
               na t ional data base on fos ter care and adopt ions and th
               has provided a framework for forthcoming regulations 

               this area: and


               OHDS has submitted a data collection form to OMB          for
               clear ance th a       t         cons ider ably g r ea ter
                                         would prov ide
               information on children being supported by title IV-E

               funds under the Soc ial Secur i ty Act.

Fourth, the demographic data presented in Table 1 on page 6

appears to be incomplete and therefore may be misleading. Our
previous research indicates that a relatively high percentage of
minority adoptions require placements with sibling groups, that
sibling groups are more difficult to place than individuals, and
that sibling groups may be an obstacle to minority
the OIG inspection find any data on the impact of sibling groups
                                                                Did        adoptions.
on minor i ty      adoptions?
Fifth, it is not clear whether the data on waiting times presented

in Table 2 on page 7 includes                  ch    i ldr en aIr eady adopted   or on
children waiting. A footnote clarifying the data base may be
appropriate because children waiting are by definition harder to
place and inclusion of children already adopted would probably
shorten average waiting times.

Sixth, in the third paragraph on page 11, the OIG descr ibes the
usual medical exam requirement as an obstacle to minor i ty
adoptions.    The Tax Reform Act of 1986 (Pub. L. 99-154) amended
ti tIe  IV-E of the Social Secur i ty Act to require States to
reimburse parents for the nonrecurr ing expenses involved in
adopti ng a spec ial needs ch                i ld.
                                     These med ical exams may now be
reimbursed by State agencies under this law. More to the point,

this requirement may be an obstacle, but to describe it as such
begs the question: if a family has no health insurance and no
money for med ical exam , then can they rea lly a f ford to
adopt ing a ch i ld? We sugges t tha t th i s requ i remen t may be a va
cr iter ion and should not be descr ibed as an obstacle to minor i ty1 id
adopt ions.
                                   ~~~
                                    .". .,




.1




     Page 3 - Richard P. Kusserow



     I f you have any ques t ions reg ard ing our concer   ns or our ed   i tor i
     suggestions, please contact Terr        Herron pn 245-3109.




     Attachment
